51

IN THE

SUPREME COURT OF THE UNITED STATES

MARQUES (Petitioner)
V.

JP MORGAN CHASE, N.A. (Respondent)

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

FILED
NOV I 7 2020
OFFICE OF THE CLERK
SUPREME COURT; II«

QUESTIONS

1. Was Chase, a nonparty and nonagent to a residential note, authorized to declare
default and foreclose? Alternatively, does a party that is not a secured creditor to a
residential debt, nor an agent thereof, have the right to declare a default and
foreclose? If yes, does it need permission from the note owner, and should there be
clear guidelines as to what constitutes default and substantial proof this event
occurred?
2. Could petitioner's secured debt be transferred independent of the note?
3. What is the definition of "secured creditor?" Alternatively, can Chase, a nonparty
to petitioner’s residential note, be called "secured creditor?"
4. Were petitioner's due process rights under the 14th Amendment infringed on by
non-judicial foreclosure, resulting in wrongful deprivation of residential property?
5. Was petitioner denied due process under the 5th Amendment by the District
Court, resulting in wrongful deprivation of residential property?

Table of Authorities
Cases
Ames v. JP Morgan Chase Bank, NA, 783 SE 2d 614 - Ga: Supreme Court
2016.......................................................................................................................... 36
Anderson u. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986).............................. 36
BelUstri v. Ocwen Loan Servicing, LLC, 284 S.W.3d 619, (Mo.Ct.App. 2009)
23

Cadle Co. v. Regency Homes, Inc., 21 SW 3d 670 - Tex: Court of Appeals, 3rd
Dist. 2000
16
Carpenter v. Longan, 83 U.S. 271, 274,16 Wall. 271, 21 L.Ed. 313(1872)14,18
Cavaliere v. Allstate Ins. Co., 996 F.2d 1111, (11th Cir. 1993)............... :
38
Cervantes v. Countrywide Home Loans, Inc., 656 F. 3d 1034 - Court of
Appeals, 9th Circuit 2011....................................................................
15,18
Edelstein v. Bank of New York Melton, 286 P. 3d 249 - Nev: Supreme Court
2012.
15
Holifield v: Reno, 115 F. 3d 1555 - Court of Appeals, 11th Circuit 1997
35
Landmark Nat'l Bank v, Kesler, 289 Kan, 528, 216 P.3d 158, (2009)....
18
Martins v. BAC Home Loans Servicing, LP, 722 F. 3d 249 - Court of Appeals,
5th Circuit 2013
18, 20,23
McCabe v. Sharrett, 12 F.3d 1558, 1560 (11th Cir.1994)......................
35
McCann v. State, 306 SE 2d 681 at 369 - Ga: Court of Appeals 1983
38
McCarthy v. Bank of Am., NA, No. 4:il-CV-356, 2011 WL 6754064,
(N.D.Tex. Dec. 22, 2011)........................................................................
23
Mullane v. Central Hanover Bank & Trust Co., 339 US 306 -'Supreme Court
1950........................................................................................................................... 29
Reinagel v. Deutsche Bank Nat. Trust Co., 735 F. 3d 220 - Court of Appeals
5th Circuit 2013
16,18
Scheuer v. Rhodes, 416 US 232 - Supreme Court 1974
39
Sciarratta v. U.S. Bank National Assn., 247 Cal. App. 4th 552 - Cal: Court of
Appeal, 4th Appellate Dist., IstDiv. 2016.
22
Shepard v. Boone, 99 S.W.3d 263, 266 (Tex.App.-Eastland 2003, no pet.).... 23
Shumate v. McLendon, 120 Ga. 396(10), 48 S.E. 10 (1904), 48 S.E. 10
20
U.S. Bank Nat’l Ass'n v. Burns, 406 S.W.3d 495, 497 (Mo.Ct.App. 2013).... 24
US Bank NA v. Cannella, 64 Misc. 3d 410 - NY: Supreme Court, Rockland
2019................................................................
22
Weems v. Coker, 70 Ga. 746, 747(1) (1883),
17,20, 28
Wells Fargo Bank, N.A. v. Perry, 23 Misc.3d 827, 875 N.Y.S.2d 853, 856
(N.Y.Sup.Ct.2009)............................................................................................. 15, i8

3

White v. First Nat'l Bank ofClaxton, 174 Ga. 281(4), 162 S.E. 701 (1932).. 20,
27

You-v. JP MorganChase Bank, 743 S:E:2d 428, (Ga. 2013) ....16,17,18, 20,21,
27, 32
Yvanova v. New Century-Mortgage Corp., 365 P. 3d 845 - Cal:-Supreme
15,16,17, 21, 24
Court 2016

Other Authorities
25
Black’s Law Dictionary............................................................................
33
Brittanica..................................................................................................
CRL Research Report: Bocian, Li, & Ernst. Foreclosures by Race and
34
Ethnicity: The Demographics of a Crisis.............................................
Eric Tars, Senior Attorney, National Law Center on Homelessness &
37
Poverty. Housing as a Human Right..................................................
Jamie Stilz-Outlaw. Summary of Edelstein v. Bank of New York Mellon, p.4,
15
William S. Boyd School of Law
-Levitin. The-Paper Chase: Securitization,-Foreclosure, and the Uncertainty of
Mortgage Title............................................................................................... 17
Markey. Standing On The Sidelines: How Nonjudicial Foreclosure Laws
Prevent Homeowner Challenges To Foreclosures—And How Judges And
31
Legislators Should Respond............
29
National Constitution Center.............
34
Reuters...................................................
.11, 24
Subject Deed Agreement provision.....
33
Wall Street Journal..............................
West's Encyclopedia ofAmerican Law
18, 26

Rules
FRCP
U.S. Supreme Court Rule 10

.-.-.-.-.,,-.-.,-.-.-.-.-.-.-.-37
12,13, 34, 37

Constitutional Provisions
29,30
20,32

14th Amendment,

5th Amendment..,

4

Table of Contents
Basis for Jurisdiction..............................

6

Constitutional & Statutory Provisions

6

Statement of the Case............................

7

Argument...................................................

12

Question 1................................................. .

14

Conflicts.....................................................

14

Question 2................................................. .

26

Question 3................................................. .

27

Question 4.................................................

29

Question 5.................................................

32

Conclusion.......... .....................................

40

Appendix Contents
Order of 11th Circuit Denying Rehearing

1

Opinion of 11th Circuit...............................

2

Order Denying 59(e) and 60(b) Motions ...

3

Final Judgment...........................................

4

Order Granting Summary Judgment .....

5

U.S. Magistrate's Judge's Order & Final Report & Recommendation. 6
Constitutional & Statutory Provisions...........

7

Subject Deed Agreement, p.12.........................

8

Alleged Assignment of subject Security Deed

9

FDIC website hosting WaMu P&A, p.l......... .

10

5

Citation of Opinions and Orders
Order of 11th Circuit Denying Rehearing (July 14, 2020)
Opinion of 11th Circuit affirming-Judgment (Feb. 20, 2020) - Doc 132
Order of District Court Denying 59(e) and 60(b) Motions (June 12, 2019) - Doc 125
Final Judgment of District Court (Feb. 26, 2019) - Doc 112
Order Granting Summary Judgment (Feb. 26, 2019) - Doc 111
United States Magistrate Judge’s Order and Final Report and
Recommendation (January 3, 2019) - Doc 106
United States Magistrate Judge’s Non-Final Report and
Recommendation (January 17, 2017) - Doc 25

Basis for Jurisdiction
The 11th Circuit Court of Appeals decided the case on February 20,
2020, and denied timely petition for rehearing on July 14, 2020.
Jurisdiction is not currently challenged. The statutory provisions
which confer on this Court jurisdiction to review the judgment on
writ, are Rule 10 of the Supreme Court, and Amendments 5 and 14 to
the U.S. Constitution.

Constitutional & Statutory Provisions
Full texts are detailed in Appendix
1. Amendment 5 of the U.S. Constitution
2. Amendment 14 of the U.S. Constitution
6

3. Fed. R. Evidence ("FRE") 301
4. Supreme Court Rule 10

Statement of the Case
The 11th Circuit Court of Appeals affirmed summary judgment
and case dismissal of the U.S. District Court for Northern District of
Georgia (Atlanta Division), under diversity jurisdiction, finding
Chase, as holder of the subject deed, had authority to publish
foreclosure notices, and the invasion of privacy false light claim was
time barred.
Other claims were dismissed without leave to amend, and plea
for injunctive relief regarding invasion of privacy violations went
unaddressed.
Background
PlaintrffiAppellant ("Petitioner") sought a loan modification
from JPMorgan Chase N.A. ("Chase"), who claimed it was her new
servicer since 2008 when prior servicer, Washington Mutual
("WaMu"), closed.
She was instead placed into temporary forbearance; and while
there was never a payment lapse, began receiving foreclosure threat
letters for the first time, aiid witnessing agents taking pictures of her

7

home on a regular basis. These acts constitute a practice known as
dual tracking, now banned under RESPA.1
When the forbearance ended, she made modification trial
payments in good faith, as the Modification Agreement which was
supposed to be presented up front,2 was unexplainably delayed until
all trial payments were made. When she received it four months later,
it neglected to specify what "all costs and expenses" she was expected
to pay.
After inquiring about the specifics of the undisclosed fees, the
modification was denied two weeks later along with a simultaneous
intent to foreclose letter. Petitioner was still current, confirmed by
Chase's supplied payment records which show no lapse.
The Court didn't address the allegation that Chase's failure to
provide fee disclosures was a violation of the Truth in -Lending Act,
and basic contract law mandating a ’meeting of the minds.' 5

1 Real Estate Settlement Procedures Act
2 The letter regarding trial payments falsely indicated the Modification Agreement
was attached.
5 While maybe outside the scope of this.petition, in 2017 the U.S. District Court for
the Northern District of Illinois Eastern Division decided at the MTD stage that
TILA does not apply to modifications because they are not new extensions of credit
.requiring new disclosures (Sultan u._M&T_Bank).However in this oasp as the note
was not transferred to Chase, and Chase stated it is a "lender" on the modification,
petitioner arpies she was owed fee disclosures under TILA, since it was essentially
a.ne.w loan.disguised^asa.modification.ofa.prior. loan.
8

Petitioner challenged Chase's alleged default claim. And argued
the alleged predatory modification led directly to wrongful foreclosure
notices. And that Chase had no authority to foreclose, as it is not the
owner of the note, nor an agent thereof, nor is there confirmation it is
the lawful deed owner.
Although Chase stated it is a lender on the Modification
Agreement, in response to two qualified written requests, it stated the
note is owned by a public security, which has never been identified.
Therefore; its authority to even modify the loan is unconfirmed:
A few months before Chase presented the Modification
Agreement to petitioner, it filed an Assignment of Security Deed
("Assignment"), stating WaMu transferred the deed to it in 2008. The
timing seemed suspicious; especially since Chase subsequently denied
the modification without disclosing the nature and amount of the
unspecified fees.
Due

to

the

above-mentioned,

the

allegedly fraudulent

Assignment; plus additional injurious acts; petitioner filed suit in
April 2016, seeking damages and injunctive relief. In February 2019
the two claims allowed to proceed6 were dismissed with prejudice.

6 wrongful attempted foreclosure and invasion of privacy (false light)

9

The District Court granted summary judgment to Chase, after
overruling petitioner's objections to. the U.S. Magistrate Judge’s Final
Report. Petitioner concurrently sought to vacate/alter the final
judgment and vacate the order denying leave to amend. Those efforts
being denied brought the case to the 11th Circuit.
It dismissed appeal of the final judgment as untimely, although
it noted that petitioner "relied on the district court,"7 and erroneously
thought the appeal notice was tolled until disposition of the post­
judgment motions. {Opinion,Docl32,p.2,fn#l). This error wasn’t
forgiven, although she requested such due to excusable neglect under
FRAP 4s, and also because the District Court had granted an appeal
extension.
However, it ”allow[ed] the appeal to proceed as to the denial of
post-judgment motions." {Id.) After reviewing for abuse of discretion, it
affirmed the ruling and denied timely rehearing.

The District Court granted extension of post-judgment motions, although
Fed.R.Civ.P. 6(b)(2) prohibits it. As requested in the Pet. for Rehearing, the granted
appeal extension motion could've potentially allowed the tardy appeal under
excusable neglect (FRAP 4).
■ FRAP 4(a): "The district court may extend the time to file a notice of appeal if:
regardless of whether its motion is filed before or during the 30 days after the time
prescribed by this Rule 4(a) expires, that party shows excusable neglect or good
cause."
10

Undisputable Facts 9

1. Chase does not own the subject note. It declared default
starting in January 2013, while petitioner was current.
2. CKase Has sRown no proof 6f agency with flie liHidentified note
owner.
3. Chase alleges WaMu transferred the subject deed to it (via the
FDIC) in September 2008 by an Assignment drafted and filed
in June 2013. There is no confirmafion WaMii owned the
subject deed or note in September 2008.
4. There is no documentation in the Chase-submitted 2008
Purchase and Assumption Agreement

(hereafter "P&A")

indicating the subject deed or note was transferred to Chase.
5. The subject Deed Agreement under stipulation #20 on p.12
indicates the deed travels with the note:
"The Note or a partial interest in the Note (together with
this Security Instrument) can be sold one or more times
without prior notice to Borrower."
6. The District Court decided Chase holds/owns the subject deed.

9 To avoid repetition, some of these were
not included in, but are part of Statement of
the Case.

11

7. The District Court implied Chase didn't need to hold/own the
subject note to foreclose, citing a 2013 Georgia Supreme Court
decision.
8. Chase scheduled foreclosure sales for November 2014 and
January 2020. It sold the property in January 2020, while the
appellate court decision was pending.10
9. Chase published foreclosure notices stating petitioner owed it a
debt and it was therefore foreclosing on the security.

10. The same month it attempted foreclosure in Nov. 2014, Chase
failed to verify petitioner owes it a debt under a Fair Debt
Collections Practices Act request.

Argument
This Court's supervisory power is sought under Rule 10 of the
Supreme Court because the U.S. 11th Circuit sanctioned a District
Court ruling, apparently based on a Georgia Supreme Court ruling,
which is contradictory to this Court, other state courts and other U.S.
appeals courts dealing with the same subject matter. This is further
explained under the Conflicts section.

Chase didn't comply with state law requirements and this act is allegedly
unlawful.

12

Additionally, the District Court dismissing some claims
prematurely and denying the pro se petitioner opportunity to amend
the complaint, overlooking standard summary judgment protocol,
along with harmful procedural irregularities - later condoned or
unaddressed by the 11th Circuit - arguably departs from the
"accepted and usual course of judicial proceedings" under Rule 10.
Lastly, petitioner contends she was deprived of homestead
property by the federal courts and by state nonjudicial foreclosure
procedure without proper due process, impinging upon 5th and 14th
Amendment rights, arguably requiring settlement by this Court under
Rule 10.
Note: The word "deed" {security deed) can be interchanged with
"mortgage" or "deed of trust" in this document.11

11 Georgia Code defines mortg^ige:"'Mortgage, means a mortgage, deed to secure debt,
deed of trust, or other instrument conveying a lien upon or security title to vrooertv "
(GA Code § 44-3-221).
These different terms are used depending upon whether a state is "title" or "lien"
theory. Georgia is a title theory state.
Source: "https://www.prepagent.com/article/Uen-theory-vs-title-theory-by-state"
13

QUESTION 1
Was Chase, a nonpariy and nonageni to a residential note, authorized
to declare default and foreclose? Alternatively, does a party that is not
a secured creditor to a residential debt, nor an agent thereof, have the
right to declare a default and foreclose? If yes, does it need permission
from the note owner, and should there be clear guidelines as to what
constitutes default and substantial proof this event occurred?
Conflicts
This petition doesn't aim to pick a side of the note deed split
conflict and presumes the respective courts had good reason to come
to their decisions. It does attempt to highlight in this case the District
Court implied the subject deed and note were separated, which is
precluded by the Deed Agreement itself. And that even if the alleged
split were lawful, Chase presented no proof of agency with the
noteowner, and had no connection to the debt.
The District Court decision that the subject deed could be
transferred to Chase independent of the note,12 affirmed by the 11th
Circuit, is "in conflict with the decision of another United States court
of appeals on the same important matter" (Rule 10 of this Court).
It is inconsistent with decisions by the U.S. Supreme Court
(Carpenter v. Longan), New York Supreme Court (Wells Fargo Bank,

12 This was indirect, as the Court initially decided the loan, note and deed were
(DbcSp^) t0
(D°C25’P-15)' Uter’ ChaSe Stated
own the Note

14

N.A. v. Perry), California Supreme Court (Yvanova v. New Century
Mortgage), the U.S. 8th and 9th Circuit Courts of Appeals (Lackey v.
Wells Fargo Bank, Cervantes v. Countrywide), and other appeals
courts, which hold transfer of a deed without the note is a nullity.
In paraphrase of Edelstein v. Bank of New York Mellon:13
The Court noted that because the deed of trust does not convey
title so as to allow the beneficiary to obtain the property
without foreclosure and sale,3 I143 in order to pursue nonjudicial
foreclosure and sale, “[t]he deed and note must be held together
because the holder of the note is only entitled to repayment,
and does not have the right under the deed to use the property
as a means of satisfying repayment.4 I15l
Summary of Edelstein v. Bank of New York Mellon, p.4. Jamie StilzOutlaw. William S. Boyd School of Law.
Although

Georgia

is

a

nonjudicial

state,

the

same

considerations apply as to judicial states.
While plenty of uncertainty existed, one concept clearly
emerged from litigation during the 2008-2012 period; in order
to foreclose a mortgage by judicial action, one had to have the
right to enforce the debt that the mortgage secured. It is hard
to imagine how this notion could be controversial. (Whitman &
Milner, Foreclosing on Nothing: The Curious Problem of the
Deed of Trust Foreclosure Without Entitlement to Enforce the
Note (2013) 66 Ark. L.Rev. 21, 23, fn. omitted.)

13 Edelstein v. Bank of New York Mellon, 286 P. 3d 249 - Nev: Supreme Court 2012
14 Ref. to 3; "Hamm v. Arrowcreek Homeowners' Ass'n, 124 Nev. 290, 298-99, 183
P.3d 895, 901-02 (2008); Orr v. Ulyatt, 23 Nev. 134, 140,43 P. 916, 917-18 (1896)."
15 Ref. to 4: "Cervantes v. Countrywide Home Loans, Inc., 656 F.3d 1034 1039 (9th
Cir. 2011)"
15

Yvanova V. New Century Mortgage Corp., 365 P
3d 845 - Cal:
Supreme Court 2016 at 928
In this case; the District Court implied Chase didn’t need an
interest in the note or debt to publish foreclosure notices:
[A]s discussed at length in previous orders, the Georgia
supreme' Court has made clear’ that "the holder’ of a deed to a
secure debt is authorized to exercise the power of sale in
accordance with the terms of the deed even if it does not also
hold the note or otherwise have any beneficial interest in the
debt obligation underlying the deed." Dkt. No. [25] at 17-18
(citing You v. JP Morgan Chase Ban k, 743 S E 2d 428 433 (Ga.
2013)
Order denying post-judgment motions, Doc 125 p.4
In 2013, Hon. Justice Graves Jr. of the 5th Circuit expressing
some " concerns, cited Cadle and Carpenter, stating, "in order to
foreclose, the party seeking to enforce the note must show it is the
owner and holder of the note." And, "longstanding United States
Supreme Court and Texas precedent requires that a foreclosing party
be the holder of the promissory'note in order to foreclose."
Remagel v. Deutsche Bank Nat. Trust Co., 735 F. 3d 220 - Court of
Appeals 5th Circuit 2013 at 229, citing Cadle Co. v. Regency Homes
Inc., 21 SW 3d 670 - Tex: Court of Appeals, 3rd Dist. 2000
Similarly, in California and other states, it seems one must
have an interest in the debt to foreclose.
In itself, the principle that only the entity currently entitled to
enforce a debt may foreclose on the mortgage or deed of trust
securing that debt is not, or at least should not be,
controversial. It is a "straightforward application of wellestablished commercial and real-property law: a party cannot
foreclose on a mortgage unless it is the mortgagee (or its
16

agent)." (Levitin. The Paper Chase: Securitization, Foreclosure,
and the Uncertainty of Mortgage Title (2013) 63 Duke L J 637
640.)
Yvanova v. New Century Mortgage Corp., 365 P. 3d 845 - Cal:
Supreme Court 2016 at 928
Although in You, the Court in contrast held the deedholder
need not "have any beneficial interest in the debt obligation
underlying the deed," it also referenced this may be problematic:

We recognize that some legal scholars take the position that
because the debt is the principal obligation and the security is
incidental to the debt, see Weems v. Coker, 70 Ga. 746, 747(1)
(1883), the deed holder should not be authorized to exercise the
power of sale unless it also holds the note. See Alexander,
Georgia Real Estate Finance and Foreclosure Law, § 5:3(b)
(noting that "problems may arise" when the note and deed are
transferred to different transferees).
Indeed, under the Third Restatement of Property, "[a] mortgage
may be enforced only by, or in behalf of, a person who is
entitled to enforce the obligation the mortgage secures."
Restatement (Third) of Property: Mortgages, § 5.4(c). The
comments note the section's "essential premise . . . that it is
nearly always sensible to keep the mortgage and the right of
enforcement of the obligation it secures in the hands of the
same person." Id. at § 5.4, cmt. a. While this approach may
indeed be sensible, it is not the approach our General Assembly
has adopted.
You v. JP Morgan Chase Bank, 743 S.E.2d 428, 433 (Ga. 2013, at 433
Some state and federal courts, including this one, recognize:
The note and mortgage are inseparable; the former as essential,
the latter as an incident. An assignment of the note carries the
mortgage with it, while an assignment of the latter alone iis a
nullity. ... All the authorities agree that the debt is the
principal thing and the mortgage an accessory.
17

?Z^nter V• LonZan’ 83 U.S'. 271, 274, 275, 16 Wall. 271, 21L Ed 313

Nat l Bank v. Kesler, 289 Kan. 528, 216 P.3d 158, 167 (2009), Martins
vr:B^C Home Loans Servicing, LP, 722 F. 3d 249 - Court of Appeals
ojh,
2013, Ceruantes v. Countrywide Home Loans, Inc., 656 f’
3d 1034 - Court of Appeals, 9th Circuit 2011.
In this instance, the District Court cited You v. JPMorgan in
granting- summary judgment to the (assumed), deedholder although-itdoesn't own the note. This decision conflicts with the above-mentioned
cases, which mainly agree that a deed is security for a debt, and must
be transferred with the note in order for the deed to be valid.
The decision that Chase could foreclose on a debt without
connection to the note also apparently contradicts West’s- definition of
promissory note which indicates the note must be presented,17
Petitioner argues the note was' not owned by Chase', and therefore'
could not be presented.
"Texas courts have held that a non-party to a contract cannot
enforce the contract unless she is an intended third-party
beneficiary,^ occasionally couching this principle in terms of
standing.13"" W See,. e.g., South Tex. Water Auth. v. Lomas, 223
S.W.3d 304, 306 (Tex.2007), PI See, e.g., Neal v. SMC Corp 99
S.W.3d 813, 817 (Tex.Ct.App.2003).
Reinagel v. Deutsche Bank Nat. Trust Co., 735 F. 3d 220 Court of
Appeals, 5th Circuit 2013 at 224-225

” "Pr“missory Note: It contains an unconditional promise to pay a certain sum to
presentingtHe note'

"

” °r ‘° ^ “ that

18

to

Who has legal authority to foreclose?
The 5th Circuit, in addition to at least two Georgia appellate
courts,18 holds that if the note and deed are separated, the deedholder
must have authorization from the noteowner to foreclose. There
appears to be no conflict regarding this concept within the higher
courts, to petitioner's knowledge.
Chase showed no proof of this permission, and petitioner
presented this fact in numerous pleadings to no avail.19 How could
Chase reasonably send agents to her home, claim default, threaten
foreclosure, and ultimately follow through with it, when the note
owner hadn't granted this authority ... or even been identified? This
appears to be clear violation of consumer-protection laws. And federal
courts condoning this behavior appears to breach the 5th Amendment.
The fact such acts can routinely occur with little oversight is deeply
disturbing.
A "mortgage servicer" may administer a foreclosure on behalf of
a mortgagee if the mortgage servicer and the mortgagee have
Martins v. BAC Home Loans Servicing, LP, 722 R 3d 249 - Court of Appeals, 5th
Circuit 2013 at 255, White v. First Nat'l Bank of Claxton, 174 Ga. 281(4), 162 S.E.
701 (1932) at 293(4), Shumate v. McLendon, 120 Ga. 396(10) 48 S E lo’nqfU) at
397(10), 48 S.E. 10
* '
u
} at
Doc 92 attach#l pp.3-4, Doc 93 p.5,#8, Doc 94 p.5 #18, Doc 120 p.8 #5, Pet. for
Rehearing pp.8-9
19

entered into an agreement granting the current mortgage
servicer authority to service the mortgage," proper notice is
given, and notice discloses that the mortgage servicer
represents the mortgagee. TEX.. PRQP.CQDE §51.0025
Martins v. BAC Home Loans Servicing, LP, 722 F 3d 249
at 255 Court of Appeals, 5th Circuit 2013, (emphasis added)
In this case, it could potentially be presumed Chase acquired
servicing rights* But it failed, to. produce proof of agency with the
noteowner/mortgagee under Discovery and other request.
Georgia courts- have indicated if the note is separated from the
deed, the deedholder should hold the deed on behalf of the noteholder.
The grantee in a security deed holds the legal title for the
benefit-of the owner-of the debt:
White v. First Nat'l Bank of Claxton, 174 Ga 281(4), 162 S.E. 701
(1932) at 293(4)
If secured- debt is assigned but deed is not, deed holder- hoidslegal title to property for benefit of note holder.
Shumate v. McLendon, 120 Ga. 396(10), 48 S.E. 10 (1904) at 397(10),
48 S.E. 10’
The Court in You:
recognizefd] that some legal scholars take the position that
because the debt is the principal obligation and the security is
incidental to the debt; see Weems v. Coker, 70 Ga. 746, 747(1)
(1883), the deed holder should not be authorized to. exercise the
power of sale unless it also holds the note.
You- at 433, (emphasis added).

20 There is no documentation in this instance showing WaMu transferred
servicing
rights to Chase.
20

There is no evidence Chase is allegedly holding the deed on
behalf of the note holder. As Chase has no interest in the debt, what
right did it have to sell the property in order to pay the debt, as it
claimed was its aim in the foreclosure notices?
As Chase failed to identify the noteowner, this entity could not
be contacted by petitioner to negotiate terms regarding the loan,21
thereby depriving her of a viable avenue of resolution.
The scant statutory law that does exist in this area has evolved
as a means of providing limited consumer protection while
preserving in large measure the traditional freedom of the
contracting parties to negotiate the terms of their arrangement.
See Law v. United States Dep't of Agriculture, 366 F.Supp
1233, 1238 (N.D.Ga.1973).
You v. JP Morgan Chase Bank, 743 SE 2d 428 - Ga: Supreme Court
2013 at 430
Nor is it correct that the borrower has no cognizable interest in
the identity of the party enforcing his or her debt. Though the
borrower is not entitled to object to an assignment of the
promissory note, he or she is obligated to pay the debt, or suffer
loss of the security, only to a person or entity that has actually
been assigned the debt.
Yvanova v. New Century Mortgage Corp., 365 P. 3d 845 - Cal:
Supreme Court 2016 at 938
The last time petitioner pointed out the fact Chase provided no
proof of authority from the noteowner was in the denied appellate
petition for rehearing.

21 Additionally to verify her payments were being properly transferred by Chase and
accurately credited.
21

[A] homeowner who has been foreclosed on by one with no right
to do so - by those facts alone - sustains prejudice or harm
sufficient to constitute a cause of action for wrongfulforeclosure.. When a non-debt holder forecloses, a homeowner is
harmed by losing her home to an entity with no legal right to
take it. Therefore under those circumstances, the void
assignment is the proximate cause of'actual'injury and all that
is required to be alleged to satisfy the element of prejudice or-.
harm in a wrongful foreclosure cause of action...
Sciarratta v. U.S. Bank National Assn., 247 Cal. App. 4th 552 - Cal:
Court of Appeal, 4th Appellate Dist., 1st Div. 201b at 555
According to a 2019 unpublished opinion in. the New York State
Supreme Court:
Where a plaintiff is not- the original lender-, it- must show- thatthe obligation was. transferred to it either by a written
assignment of the underlying note or the physical delivery of
the note. Because the mortgage automatically passes with the
debt as an inseparable incident, a plaintiff must generally
prove its standing to foreclose on the mortgage through either
of these means, rather than by assignment of. the mortgage.
US Bank NA v. Cannella, 64 Misc. 3d 410 - NY: Supreme Court,
Rockland 2019 at 414 (emphasis supplied)
This holding apparently echoes- the idea the note and- debt arepassed together along with the deed. And assignment of the deed
alone is insufficient to transfer debt.
Restated, as the note was not transferred to Chase, certain
courts outside of Georgia may conclude it had no permission to modify
the loan, no right to declare default even if payments were missed,
and no lawful authority to publish foreclosure notices. These rights
would belong to another party.

22

In 2013, the 5th Circuit acknowledged discrepancies in federal
courts regarding the practice of splitting the note and deed.22
In order to foreclose, the theory goes, a party must hold both
the note and the deed of trust. The federal district courts have
reached conflicting results on precisely what is required. The
minority of district courts have held that the note and deed of
trust must both be held by the foreclosing entity. 161 23 Others
have held that, under Texas law, foreclosure does not require
possession of the note.
There are few sources in Texas law that support the "split-thenote" theory. Two courts have held that a party must hold the
note in order to execute on a lien. In Shepard v. Boone, 99
S.W.3d 263, 266 (Tex.App.-Eastland 2003, no pet.), the court
held that summary judgment was properly granted against the
creditor where the foreclosing party had adduced no evidence
that it was the owner and holder of the underlying note.
The weight of Texas authority, however, suggests just the
opposite.
Martins v. BAC Home Loans Servicing, LP, 722 F. 3d 249 - Court of
Appeals, 5th Circuit 2013 at 254 and 255
The following year, in 2014, the 8th Circuit concluded the
reverse:
[T]he note and the deed of trust are inseparable, and when the
promissory note is transferred, it vests in the transferee 'all the
interest, rights, powers and security conferred by the deed of
trust upon the beneficiary therein and the payee in the notes."’
Bellistri v. Ocwen Loan Servicing, LLC, 284 S.W.3d 619, 623
(Mo.Ct.App. 2009) (quoting St. Louis Mut. Life Ins. Co. v.
Walter, 329 Mo. 715, 46 S.W.2d 166, 170 (1931)); see also U.S.

22 It ultimately decided note ownership was not essential for foreclosure.
23 Reference for [61: "See, e.g., McCarthy v. Bank of Am., NA ("If the holder of the deed
of trust does not own or hold the note, the deed of trust serves no purpose, is
impotent, and cannot be a vehicle for depriving the grantor of the deed of trust of
ownership of the property described in the deed of trust.")"
23

Bank Nat'l Ass’n v’ Burns> 406 S.W.3d 495, 497 (Mo.Ct.App.
2013)
Lackey v. Wells Fargo Bank, NA, 747 F. 3d 1033 - Court of Appeals,
8th Circuit 2014 at 1037
The Subiect Deed Agreement
The subject Deed Agreement provision #20 on p.12, also
indicates the deed cannot be transferred independent of the note.26
Yet the Court decided it was.
By disregarding the terms of the deed contract, the District
Court arguably abused its discretion. This Court is respectfully asked
to reverse the ruling granting summary judgment to Chase.
Does. a nonparty to a residential debt have the right to. declare a

default? Alternatively, does a party that is not a secured creditor to a
residential debt nor its agent have the right to declare a default?
The borrower owes money not to the world at large but to a
particular person or institution, and only the person or
institution entitled to payment may enforce the debt by
foreclosing on the security.
Yvanova v. New Century Mortgage Corp., 365 P. 3d 845 Cal:
Supreme Court 2016, Id. at 93.
Chase implied no debt was owed to it, stating it did not own the
subject note. And if this was unclear, its failure to validate the debt in

“ ”The N°te " a Parti£d interest in the Note (together with this Security
Instrument) can be sold one or more times without prior notice to Borrower.”
24

Nov. 2014 provided clarity. Yet, it declared default numerous times
without authority nor merit, and while petitioner was current.
But Chase’s default claim, no matter how inaccurate, is
irrelevant if it has no connection to the debt. By definition, a default
involves a breach of contract.26 Although the note isn't owned by
Chase, the District Court stated petitioner was "in default as early as
November 2, 2012." (DoclllJl.p.S).
Petitioner's objections and claim she was current when default
was reported, were all overruled, although Chase's supplied payment
history supports it. (Docl09,#5,pp.12-13).
Furthermore, if there was a debt owed to Chase, it likely would
have verified it, instead of ignoring petitioner's request. Since the
11th Circuit didn't address this, this Court is respectfully asked to
review the trial court's opinion that default occurred (on an unverified
debt), as it appears abuse of discretion. The decision cost petitioner
the loss of her home as well as much emotional distress.

26 Definition of default according to Black’s Law Dictionary:
The omission or failure to fulfill a duty, observe a promise, discharge an
obligation, or perform an agreement. State v. Moores, 52 Neb. 770 73 N W
299; Osborn v. Rogers, 49 Hun, 245, 1 N. Y. Supp. 623; Mason v. Aldrich 36
Minn. 283, 30N. W. SS4
Source: "http://thelawdictionary.org/default/"

25

QUESTION 2
Could petitioner's secured debt be transferred independent of the
note?
For argument’s sake, even if the subject deed was validly
assigned to Chase, in this case, there is no documentation of an
accompanying debt transfer. The alleged Assignment of Security Deed
makes no reference to a debt. It refers to "all interest secured
thereby," but doesn't specify a sum of money owed.
AH the authorities agree that the debt is the principal thing
and the mortgage an accessory." {Carpenter). And, "the holder of the
note is only entitled to repayment." (Edelstein). Following this logic,
was Chase entitled to foreclose on a debt not owed to it? And how
could it own the debt without being a party to the note?
According to West's Encyclopedia of American Law, the
definition of promissory note indicates the note must be present to be
enforced. Its definition of mortgage states the debt is "evidenced by a
mortgage note." By definition, it appears the debt is transferred with
the note. This Court will hopefully choose to provide clarity.

Promissory Note:
It contains an unconditional promise to pay a certain sum to
the order of a specifically named person or to bearer — that is,
to any individual presenting the note. A promissory note can be
either payable on demand or at a specific time.

26

Mortgage:
A legal document by which the owner (i.e., the buyer) transfers
to the lender an interest in real estate to secure the repayment
of a debt, evidenced by a mortgage note.
West's Encyclopedia of American Law, edition 2. Copyright 2008* The
Gale Group, Inc. All rights reserved.

QUESTION 3
What is the definition of "secured creditor?" Alternatively, can Chase, a
nonparty to petitioner's residential note, be called a "secured creditor?"
Chase represented itself as a secured creditor when it
attempted foreclosure in 2014. Its notices to petitioner and publication
in the local paper indicated its aim was to collect on a debt owed to it
and not a different party. Confusion ensued because Chase also
claimed it did not own the note,27 and Georgia law does not define the
term. In You v. JPMorgan (at 431-432) the Court noted:
[T]he term "secured creditor," which is used to signify the
foreclosing party, is not defined in the statute, an omission
particularly notable given the statute's explicit definition of the
term "debtor." See OCGA § 44-14-162.1. The term "secured
creditor" was introduced into the statute in 1981 when the
provisions requiring notice to the debtor were first enacted. See
Ga. L. 1981, p. 834. At that time, our common law appears to
have allowed for the possibility of a non-judicial foreclosure
conducted by one who held legal title to the property but not the
underlying note. See White v. First Nat'l Bank of Claxton 174
Ga. 281(4), 162 S.E. 701 (1932) (affirming validity of nonjudicial foreclosure sale conducted by party who held title to
property but not underlying promissory note). See
Privately, in response to qualified written requests.
27

also Shumate v. McLendon, 120 Ga. 396(10), 48 S.E. 10 (1904)
(recognizing possibility that grantee in security deed may
transfer debt without transferring title to property). Thus,
while the phenomenon of "splitting" ownership of the note from
ownership of the deed may not have been prevalent until
relatively recently, this practice was not expressly prohibited
prior to the enactment of the modern non-judicial foreclosure
statute in 1981.-^ 28
In introducing the term "secured creditor" without defining it,
the 1981 statute appears to have made no change in this
regard. Tellingly, the legislature plainly stated that the notice
provisions it was then enacting were "procedural and remedial
in purpose." Ga. L. 1981, pp. 834, 836, § 5(a).
Although the Court in You held the "holder of a security deed"
could be "considered a secured creditor"... "even if it does not also hold
the note or otherwise have any beneficial interest in the debt
obligation underlying the deed," (at 430) as the term is undefined in
Georgia law, it's unclear how this can be possible. Especially in this
cas.e, where Chase isn't .an agent of the note.'owner..
Had this term been clearly defined, would the Court or jury
have likely concluded that Chase erroneously claimed the title in its
foreclosure and other notices? And/or that Chase had no authority to
foreclose?

28 Reference to ***: "Neither Sammons v. Nabers, 184 Ga. 269, 191 S.E. 124 (1937),
nor Weems v. Coker, 70 Ga. 746 (1883), leads us to conclude otherwise, for the
simple reason that both of these cases involved judicial foreclosures, in which
competent evidence of the underlying debt is required to establish one's cause of
action. See Alan M. White, Losing the Paper, 24 Loy. Consumer L.Rev. at 480 (2012)
(distinguishing judicial from non-judicial foreclosures in that ”[i]n a judicial
foreclosure, as the plaintiff, the foreclosing party must come forward with
evidence that it is the proper transferee of the note"):" (emphasis added)
28

QUESTION 4
Were petitioner's due process rights under the 14th Amendment
infringed on by non-judicial foreclosure, resulting in wrongful
deprivation of residential property ?
According to the National Constitution Center, "the Court has
determined that due process requires, at a minimum- (X) notice; (2) an
opportunity to be heard; and (3) an impartial tribunal. Mullane v.
Central Hanover Bank (1950)." 29
Although the state itself didn't pursue foreclosure in this
instance, its legislated process for such allowed and approved this act
to occur without judicial oversight, thereby depriving petitioner of
"property, without due process of law" under Section 1 of the 14th
Amendment. This is asked to be "settled by this Court.”
It s common knowledge that a home loan is often a borrower's
largest personal debt. Thus a default frequently results in
monumental consequences. This can be exceptionally egregious if the
default is inaccurate. It's alleged a false default was reported callously
and carelessly in this case, to the detriment of petitioner's credit
rating, and emotional and mental health.

"https://constitutioncenter.org/interactive-constitution/amendment/amendmentxw" citing: Mullane v. Central Hanover Bank & Trust Co339 US 306 - Supreme
Court 1950
29

It is reasoned the 14th Amendment was created to protect
society from such unfair acts, in particular when it comes to
potentially depriving a person of homestead property. And that nonjudicial foreclosure opposes 14th Amendment rights.
As petitioner lives in a non-judicial state,

she had a

disadvantage compared with homeowners in judicial states, as her
home was scheduled for sale without opportunity "to be heard" nor"an
impartial tribunal," and was therefore denied opportunity to challenge
the default (without filing suit), and to request proof that Chase had
rights and reason to foreclose.
Filing suit was not something she was familiar with, and it is
often difficult to procure foreclosure-related counsel, as she was
ultimately unable to.30 And with limited time available -between notice
and the sale (approximately 30 days), it simply might not be possible
to timely file a lawsuit to stop a wrongful foreclosure. This situation is
not unique to .petitioner, and .gives the foreclosing party a huge
advantage and less incentive to correct accounting errors or other
mistakes.
And even if a homeowner files suit, they 'are often still at a
supreme disadvantage, faced with lack of opportunity to challenge
30 Many lawyers refrain from taking these cases, forcing self-representation
or loss
by default.
30

documents due to courts' view they lack standing, precisely what
occurred here, as the District Court ruled "Plaintiff does not have
standing to challenge" contracts she is not a party to.31 (Doc 25: U.S.
Magistrate's Non-Final Report, p.19, also see Appellant Opening Brief,
P-13).
To challenge a nonjudicial foreclosure, a homeowner necessarily
becomes the plaintiff in a lawsuit. But in a state that requires
judicial foreclosure, the homeowner would become the
defendant in a foreclosure lawsuit. Because a defendant need
not establish standing, a homeowner in a judicial foreclosure
state could defend against a foreclosure by asserting the exact
same claim—invalid assignment. . . Thus, a ridiculous result
occurs if a homeowner’s ability to assert the foreclosing entity’s
lack of authority to foreclose depends entirely on whether the
property is situated in a state that allows nonjudicial
foreclosure.
Standing On The Sidelines: How Nonjudicial Foreclosure Laws
Prevent Homeowner Challenges To Foreclosures—And How Judges
And Legislators Should Respond, (2014-2015), p.768, Thomas S.
Markey, Boston University School of Law (J.D. 2015).

Petitioner wasn't "challenging" the P&A, simply pointing out public information
on the FDIC website noting it is missing Schedule 3.1a (of transferred assets), and
therefore Chase lacks evidence of the alleged subject deed transfer. (Doc 96: pp.2-3).
Yet motion to judicially notice the public website was denied.
31

QUESTION 5
Was petitioner denied due process under the 5th Amendment by the
District Court, resulting in wrongful deprivation of residential
property?
We all know housing or shelter is a basic human need. Many
feel it should be a human right. 32 Although the Fifth Amendment
offers safeguard of this essential, petitioner asserts she was denied
due process protection by the district court. This being sanctioned by
the i'lth Circuit debatably deserves to be "settled by this Court" under
Itule 10. Cases -involving residential property are distinct -in that they
deal with foundational life issues such as health, wellbeing, and
societal stability.
As the Georgia Supreme Court put it in 2013, "the continued
ease with which foreclosures may proceed in this State gives us pause,
in light of the grave consequences foreclosures pose for individuals,
families, neighborhoods, and society in general." (You v. JPMorgan, at
434)
The issues mentioned briefly below were alleged in the
Complaint, although not in detail, as the claims primarily hinged
upon Chase's lack of connection to petitioner's note, deed and loan.
They create a backdrop of unfair practices, aggravating Chase's
Polling indicates that three-quarters of Americans believe that adequate housing
is a human right." Housing as a Human Right, p.l, Eric Tars, Senior Attorney,
-National -Law Center on Homelessness & -Poverty-.
32

allegedly injurious acts, causing petitioner emotional distress, mental
anguish, and the loss of a budding business.
Just “the threat of losing your home is stressful enough to make
you ill” according to a 2011 article in the Wall Street Journal.™
Losing it unfairly or without thorough due process, can be
extraordinarily devastating for a family.
This may also involve civil rights, defined as "guarantees of
equal social opportunities and equal protection under the law,
regardless of race, religion, or other personal characteristics,"
according

to

Brittanica.

This

particular

act

of intentional

displacement (wrongful foreclosure), can be considered to infringe on
civil rights because minority neighborhoods, such as the location of
petitioner's home, are disproportionately ravaged with foreclosure,
many of them unchallenged and wrongful.
We have estimated that two million families have lost their
primary homes and that African American and Latino
borrowers have borne and will continue to disproportionately
bear the burden of foreclosures. Our estimates were generated
by calculating foreclosure rates in a large proprietary dataset
and applying them to origination data, including information
about borrowers’ demographic profiles.

Tying Health Problems to Rise in Home Foreclosures
"https://www.wsj.eom/artides/SBl0001424053111904199404576538293771870006”
33

Foreclosures by Race and Ethnicity: The Demographics of a Crisis,
CEL Research Report, Debbie Gruenstein Bocian, Wei Li, and Keith
S. Ernst, June 18, 2010, p.18
It bears mentioning; "[pjredatory lending aimed at racially
segregated minority neighborhoods led to mass foreclosures that
fueled the U.S. housing crisis, according to a new Study published in
the American Sociological Review."34 {Reuters, Oct. 3, 2010). And that
the Complaint in this case notes petitioner receiving both a risky
80/20 loan (instead of a sought fixed-rate), and an allegedly predatory
modification, despite a good credit rating and other positive factors.
If a party, such as a corporation, can at any time - without legal
authority - displace another party, in particular a family, such breach
of civil liberties will have far reaching negative effects on society,
especially children.
Petitioner contends due process was infringed on in ways which
depart from the "accepted and usual course of judicial proceedings"
under Rule 10: (1) by the District Court's bypassing the summary
judgment standard in companion with denying judicial notice, and
(2) by the Court disallowing requests to amend.

34 "Predatory lending typically refers to loans that carry unreasonable fees, interest
rates and payment requirements." (,Reuters, i0/3/20i(j)
"https://www.reuters.com/article/us-usa-foreclosures-race/racial-predatory-loansfueied-u-s-housing-crisis-study-idUSTRE6936K520i0i004"
34

Lastly, it is argued that procedural errors on the part of both
petitioner and the Court, were given more focus than the evidence, and
since this case involves homestead property, was an unjust imbalance.
Due process was impacted by the courts' allegedly biased procedural
decisions and/or concentration more on procedure than substance.
As isolated incidents these acts may not necessarily be
significant.

But overall, gave the appearance Chase was given

latitude denied to petitioner, ultimately causing loss of homestead
property. Because they were discussed at length in the post-judgment
motions, and for the sake of brevity, specific examples other than
these footnoted won't be included.35
Summary Judgment Standard
Had the court looked at the evidence "in the light most
favorable to the non-moving party,"36 the outcome would likely have
been different. Because “whether a fair-minded jury could return a

The 11th Circuit stated, "it was within the court’s discretion to consider [Chase’s]
belated response," to post-judgments motions. Yet the district court allegedly
erroneously deemed these same motions tardy (for which reason the 59(e) was
denied) although petitioner mailed them on the due date - and had an order
allowing such permission (Opinion-Doc 132 p.6. Also see Appellant Opening Brief
pp.28-30, and Pet. for Rehearing p.2).
[T]he Court didn't strike Defendant's untimely objections to requests for
admissions, which hurt her case. And "didn't compel upon request answers to the
only three interrogatories." (60(b) Mot.,p.7).
36 McCabe u. Sharrett, 12 F.3d 1558, 1560 (11th Cir.1994), Holifield v. Reno, 115 F.
3d 1555 - Court of Appeals, 11th Circuit 1997
35

verdict for the plaintiff on the evidence presented,”37 as the Court
quoted in the U.S. Magistrate's Final Report (p.3), was unfairly or
erroneously decided. Chase had virtually no support for its claims.
There is lack of proof of the subject deed transfer,33 no agency with the
noteowner; and the deed agreement precludes separation of the note
and deed.
Also, the following: decision, adopted in the final judgment , was
made early in the case before Discovery and without petitioner haviing
opportunity to present evidence: "The Court previously concluded that
the original promissory note and security deed . . . were assigned to
Defendant on June 14, 2013." (Id. p.7). However it was later
contradicted

by

Chase's

witness

declaration,

and

Discovery

admissions it did not own the note (and did not when it attempted
foreclosure) - yet remained uncorrected.
So petitioner lost a home apparently due to errors of fact, errors
✓

of law, abuse of discretion, or all the above, which the appeals court
didn't rectify; This perhaps warrants this Court's supervisory power.

37 Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986)
38 Irrelevant to standing, as petitioner wasn’t challenging the P&A, simply
highlighting this fact. However she also argued “It is possible that a debtor could
have standing to challenge the validity of an assignment indirectly, if an invalid
assignment violated a statutory protection and thereby injured the debtor.” Ames v.
JP Morgan Chase Bank, NA, 783 SE 2d 614 • Ga: Supreme Court 2016 at 621 (See
Appellate Opening Brief, p.l3)
36

Did The Court Wrongfully Deny Judicial NntW9
It denied petitioner's judicial notice motion stating, "the
purposes for which Plaintiff wishes the Court to take judicial

notice

are irrelevant to the remaining claims," because "Defendant argued ...
Plaintiff only asks for judicial notice to

support arguments—concerning

the validity of the underlying Loan documents and Defendant’s right
to foreclose-that are no longer before the Court." (Doc 106 pp.6-7)
But as mentioned, those issues were prematurely disposed of in
the Magistrate's Non-Final Report, before Discovery, and without
evidence. This arguably requires review under Rule 10, as it defies the
"accepted and usual course of judicial proceedings." And debatably
violates FRE 301 in not following "usual rules of evidence."
Since the P&A lacks reference of the subject deed transfer to
Chase, the Court, in deciding this act occurred, apparently relied

on

an unsubstantiated claim or presumption.
This put the onus on petitioner to rebut such under FRE 301.39
Yet the Court denied a Motion to Take Judicial Notice of the fact the

39 “In
. a, civil
, case, unless a federal statute or these rules provide otherwise, the party
is directed has the burden of produc“^

37

P&A shows no such event, nor that WaMu owned the deed in order to
be able to transfer it.40
And declined to notice the FDIC website hosting the P&A,
which states Article III of the document contains a "scrivener's error,"
and that "there is no Schedule 3.-la" containing transferred assets.Whenever evidence contradicting the presumption is offered,
the latter disappears entirely and the triers of the fact are
bound to follow the usual rules of evidence in reaching their
ultimate conclusions of fact.
McCann v. State, 306 SE 2d 681 at 369 - Ga: Court of Appeals 1983 at
369

Denial of Request t.n Ampnd
In reference to "whether the court should have granted leave to
amend," The 11th Circuit stated:
”[W]e lack jurisdiction to review that judgment. And an appeal
from the denial of a Rule 60(b) motion “does not bring up the
underlying judgment’ for review.” Cavdliere v. Allstate Ins. Co.,
996 F.2d 1111, 1115 (11th Cir. 1993) (quotation marks
omitted)." (Docl32, p.6)
The 60(b) motion requested "relief from the Order denying
amending of the complaint" (Docl21,p.2). Therefore, it appears the
11th Circuit did have jurisdiction.

40
P&A d°es not show the subject deed was included in WaMu's assets.
Additionally, Chase ignored Discovery request to provide proof that WaMu held the
subject- deed at- t-he time of the alleged- transfer.38

And although "the claimant is entitled to offer evidence to
support the claims," (Scheuer v. Rhodes, 416 US 232 - Supreme Court
1974) motion to amend was denied after Discovery, and the District
Court declined to reconsider.
The denied 60(b) motion stated:
"[N]ew and compelling developments (information obtained in
discovery)... should ideally allow [for] amending." (p.19)
Disallowing at least one chance to amend, prevented the
presentation of new evidence gleaned or confirmed in Discovery. And
barred correction of any pleading deficiencies in likely valid claims.
The most significant of the prematurely-dismissed claims being
invasion of privacy intrusion, as the Court decided "the security deed
permitted Defendant to enter the Property to inspect the exterior."
(Doc 25, p.31). What the Court missed is even if Chase owned the
deed, the alleged ’inspector's' actions were intrusive, invasive, and
terrifying, and caused much emotional distress.
Petitioner contends the early dismissal of certain claims was
erroneous and remained uncorrected even after the filing of post­
judgment motions.
The 11th Circuit stated petitioner "has not shown any
compelling justification that required relief from the judgment." (Doc
132,p.5). This petition respectfully challenges the opinion.
39

Conclusion
In conclusion, according to George Washington, the due
administration of justice is the firmest pillar of good government.
Petitioner prays this Honorable Court will consider one or more of
these questions and grant this petition. Not only for the sake of justice
in this case, but for clarity on issues that impinge on life, liberty, and
the pursuit of happiness for all. It is deeply thanked for its time and
consideration.

40

isi A. Marques, pro se
541 10th Street NW, #360
Atlanta, GA 30318
678 620-1581

41

